Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





     MEDICARE HOME OXYGEN 

          EQUIPMENT:

      COST AND SERVICING 





                    Daniel R. Levinson

                     Inspector General 


                     September 2006

                     OEI-09-04-00420 

               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
Δ   E X E C U T I V E                                   S U M M A R Y                                



                  OBJECTIVE
                  To (1) compare Medicare spending for oxygen concentrators with
                  suppliers’ average purchase price and (2) determine the nature and
                  frequency of servicing for concentrators and portable equipment.


                  BACKGROUND
                  Section 1834(a)(5) of the Social Security Act authorizes Medicare
                  payment for home oxygen equipment under its durable medical
                  equipment (DME) benefit. DME is defined as equipment that can
                  withstand repeated use, is used primarily to serve a medical purpose,
                  and is appropriate for use in a beneficiary’s home. Medicare covers both
                  stationary and portable oxygen delivery systems, which were payable on
                  a rental-only basis from 1989 (the year in which Medicare implemented
                  the DME fee schedule) until 2006.

                  The monthly allowance for stationary oxygen equipment covers the
                  oxygen equipment; oxygen contents including all refills for stationary
                  and portable systems; equipment delivery, setup, and maintenance;
                  accessories and supplies; patient education;, and other services
                  associated with furnishing home oxygen. Medicare pays an additional
                  amount for portable equipment that a beneficiary rents to provide
                  mobility in the home. Typically, beneficiaries rent both stationary and
                  portable units.

                  Although Medicare has reduced the payment rates for home oxygen
                  equipment three times since 1989, this equipment still consumes a large
                  share of Medicare spending for DME. The Balanced Budget Act of 1997
                  reduced the rates by 25 percent effective January 1, 1998, and an
                  additional 5 percent effective January 1, 1999. In 2005, Medicare
                  further reduced payment rates by an average of 8.6 percent for
                  stationary oxygen equipment and 8.1 percent for portable oxygen
                  equipment. In 2004, home oxygen equipment accounted for 24 percent
                  ($2.7 billion of $11.1 billion) of all Medicare spending for DME,
                  prosthetics, orthotics, and supplies.

                  The Deficit Reduction Act (Public Law 109-171), signed into law on
                  February 8, 2006, ended the longstanding rental-only payment policy
                  for home oxygen equipment. The law limits rental payments to 36
                  months of continuous use. After this threshold is reached, suppliers
                  must transfer title of the equipment to the beneficiary; however, under
                  a proposed rule that the Centers for Medicare & Medicaid Services

OEI-09-04-00420   M E D I C A R E H O M E O X Y G E N E Q U I P M E N T: C O S T   AND   SERVICING       i
E X E C U T I V E                       S U          M M A R Y


                   (CMS) published in August 2006, suppliers would receive payments for
                   certain maintenance and servicing. The President’s fiscal year 2007
                   budget proposes further reform and would limit the rental period to 13
                   months.

                   We used a mail survey to collect information from suppliers that
                   furnished oxygen equipment to 150 Medicare beneficiaries who rented
                   oxygen equipment in 2004. Using a standardized data collection
                   instrument, we asked suppliers to report all services they provided to
                   the beneficiaries for the entire rental period and to submit
                   documentation supporting each service. We also requested that
                   suppliers report the price they paid for oxygen concentrators, which are
                   stationary equipment, and submit a copy of the invoice. We visited
                   suppliers in California and Florida to obtain detailed information about
                   their operations, servicing and maintenance practices, and relationships
                   with patients. We also accompanied suppliers on visits to patients’
                   homes to observe delivery and setup practices as well as ongoing
                   maintenance for oxygen equipment.


                   FINDINGS
                   Based on the 2006 median fee schedule amount, Medicare will allow
                   $7,215 for 36 months for concentrators that cost $587, on average,
                   to purchase. At today’s median monthly rental rates, Medicare will
                   allow $7,215 for beneficiaries who started renting in January 2006 and
                   continue renting for 36 months. Beneficiaries will incur $1,443 in
                   coinsurance over this period. If Medicare rental payments for oxygen
                   concentrators were limited to 13 months, the program and its
                   beneficiaries would save approximately $3.2 billion over 5 years.
                   Based on our analysis, minimal servicing and maintenance for
                   concentrators and portable equipment are necessary. Beneficiaries
                   typically receive a concentrator, which is stationary equipment, and a
                   portable cylinder system. Suppliers train beneficiaries to perform
                   limited routine maintenance. Based on our survey, suppliers check
                   concentrators every 4 months on average, a frequency that exceeds
                   manufacturers’ guidelines. Maintenance for a portable system
                   primarily consists of picking up empty cylinders and delivering full
                   ones.




 OEI-09-04-00420   M E D I C A R E H O M E O X Y G E N E Q U I P M E N T: C O S T   AND   SERVICING   ii
E X E C U T I V E                       S U          M M A R Y 





                   RECOMMENDATIONS
                   Recent legislation limits the rental period for home oxygen equipment
                   and directs the Secretary to pay for maintenance and servicing after the
                   rental period ends if the Secretary determines such payments are
                   reasonable and necessary. Concentrators require and receive limited
                   servicing in beneficiaries’ homes. Medicare will continue to pay for
                   portable contents. Therefore, we recommend that CMS:
                   Work with Congress to further reduce the rental period for oxygen
                   equipment. The Deficit Reduction Act ended the longstanding rental-only
                   payment policy for oxygen equipment, but further reform is warranted.
                   Medicare and its beneficiaries will continue to pay more than 12 times the
                   purchase price for concentrators under the new 36-month rental
                   limitation.
                   Determine the necessity and frequency of nonroutine maintenance
                   and servicing for concentrators. Suppliers most commonly perform
                   routine servicing that Medicare does not cover for DME that beneficiaries
                   own. CMS needs to determine the necessity and frequency of nonroutine
                   servicing, which is covered by Medicare, and appropriate reimbursement.
                   Determine if a new payment methodology is appropriate for portable
                   oxygen systems. Unlike concentrators, portable oxygen systems require
                   refills and suppliers pick up empty cylinders and deliver full ones.
                   Ongoing monthly payments for cylinder contents only may not adequately
                   reimburse suppliers for providing refills.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS concurred with our recommendations. The agency noted that the
                   President’s budget for fiscal year 2007 proposed reducing the rental
                   period for oxygen equipment to 13 months. Furthermore, CMS stated
                   that its proposed rule, published on August 3, 2006, addresses the
                   payment methods for nonroutine maintenance and servicing, as well as
                   for portable oxygen systems.

                   CMS expressed concern that our savings estimate for a 13-month rental
                   limit is too high, because it includes beneficiaries’ savings and does not
                   reflect payments for maintenance and servicing, potential shifts in
                   utilization, or factors that the Congressional Budget Office (CBO) and
                   CMS’s Office of the Actuary would consider. We acknowledge that,


 OEI-09-04-00420   M E D I C A R E H O M E O X Y G E N E Q U I P M E N T: C O S T   AND   SERVICING   iii
E X E C U T I V E                       S U          M M A R Y


                   based on these factors, our calculation would likely result in a higher
                   estimate than CBO or CMS estimates.




 OEI-09-04-00420   M E D I C A R E H O M E O X Y G E N E Q U I P M E N T: C O S T   AND   SERVICING   iv
Δ   T A B L E          O F           C O N T E N T S                              




         EXECUTIVE SUMMARY .....................................i




         INTRODUCTION ........................................... 1




         FINDINGS ................................................. 8

                   Medicare Spending for Oxygen Concentrators . . . . . . . . . . . . . . . . 8 


                   Minimal Servicing for Equipment . . . . . . . . . . . . . . . . . . . . . . . . . 11 




         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14 

                   Agency Comments and OIG Response . . . . . . . . . . . . . . . . . . . . . . 15 




         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 

                   A: Confidence Intervals for Selected Statistics . . . . . . . . . . . . . . . 16 


                   B: Methodology for Savings Calculation . . . . . . . . . . . . . . . . . . . . 17 


                   C: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23 

Δ   I N T R O D U C T I O N                                                  




                  OBJECTIVE
                  To (1) compare Medicare spending for oxygen concentrators with
                  suppliers’ average purchase price and (2) determine the nature and
                  frequency of servicing for concentrators and portable equipment.


                  BACKGROUND
                  Section 1834(a)(5) of the Social Security Act (the Act) authorizes
                  Medicare payment for home oxygen equipment under its durable
                  medical equipment (DME) benefit. DME is defined as equipment that
                  can withstand repeated use, is used primarily to serve a medical
                  purpose, and is appropriate for use in a patient’s home
                  (42 CFR § 414.202). Medicare Part B covers both stationary and
                  portable oxygen delivery systems.

                  Stationary systems include concentrators, which concentrate the oxygen
                  in room air, and stationary gas and liquid systems. Portable systems
                  include portable concentrators, as well as gas and liquid oxygen
                  systems. A portable gas system consists of a cylinder, which stores
                  pressurized oxygen, and a regulator, which controls the flow of oxygen
                  from the cylinder. A portable liquid oxygen unit is a small unit filled
                  with oxygen cooled to a very low temperature.1
                  Until January 1, 2006, Medicare paid a monthly rental fee for home
                  oxygen equipment as long as it was medically necessary. Section
                  5101(b)(1) of the Deficit Reduction Act (DRA) eliminated indefinite
                  rental for this equipment and limited it to 36 months, effective
                  January 1, 2006.

                  Rental payments for oxygen equipment are based on monthly fee
                  schedule allowances that vary by State. The basis for these allowances
                  is the average payment that Medicare made in each State in 1986. The
                  fee schedule amounts generally are adjusted annually based on the
                  change in the Consumer Price Index (42 CFR § 414.226). The fee
                  schedule amounts are limited by a ceiling (upper limit) and floor (lower
                  limit) equal to 100 percent and 85 percent, respectively, of the median of
                  the statewide fee schedule amounts. Medicare pays 80 percent of the



                     1 Centers for Medicare & Medicaid Services, Coverage Issues Manual, DME: Home Use
                  of Oxygen, 60-4.



OEI-09-04-00420   M E D I C A R E H O M E O X Y G E N E Q U I P M E N T: C O S T   AND   SERVICING       1
I N T R O D        U C T            I O N


                    fee schedule amount and beneficiaries are responsible for 20-percent
                    coinsurance as long as they rent oxygen equipment.

                    The monthly allowance for stationary oxygen equipment covers the
                    oxygen equipment; oxygen contents including all refills for stationary
                    and portable systems; equipment delivery, setup, and maintenance;
                    accessories and supplies; patient education; and other services
                    associated with furnishing home oxygen. Medicare pays an add-on, or
                    additional amount, for portable equipment that a beneficiary rents to
                    provide mobility in the home. Typically, beneficiaries rent both
                    stationary and portable units. Suppliers of oxygen equipment submit
                    claims to the DME Regional Carriers for processing and payment.

                    Since implementation of the fee schedule, Medicare has reduced the
                    payment rates for home oxygen equipment three times. The Balanced
                    Budget Act of 1997 reduced the rates by 25 percent effective January 1,
                    1998, and an additional 5 percent effective January 1, 1999. Section
                    302(c)(2) of the Medicare Prescription Drug, Improvement, and
                    Modernization Act of 2003 (MMA) required the Centers for Medicare &
                    Medicaid Services (CMS) to reduce payments for oxygen and oxygen
                    equipment based on the percentage difference between the
                    2002 Medicare fee schedule amount for each State and the median
                    prices paid by Federal Employees Health Benefits (FEHB) plans. In
                    2005, Medicare reduced payment rates by an average of 8.6 percent for
                    stationary oxygen equipment and 8.1 percent for portable oxygen
                    equipment based on the Office of Inspector General (OIG) report
                    “Medicare and FEHB Payment Rates for Home Oxygen Equipment”
                    (OEI-09-03-00160, Revised), which compared Medicare payments to the
                    rates paid by FEHB plans.
                    Medicare Spends $2.3 Billion To Rent Oxygen Concentrators for
                    Approximately 1.3 Million Beneficiaries
                    Nearly all Medicare beneficiaries who rent home oxygen equipment rent
                    concentrators. Approximately 1.3 million beneficiaries rented them in
                    2004. Based on Medicare paid claims data, Medicare spends
                    significantly more money on concentrators than on any other type of
                    home oxygen equipment. In 2004, concentrator rentals accounted for
                    84 percent, or $2.3 billion, of all Medicare spending for home oxygen
                    equipment and supplies.




 OEI-09-04-00420    M E D I C A R E H O M E O X Y G E N E Q U I P M E N T: C O S T   AND   SERVICING   2
     I N T R O D            U C T            I O N 




               Figure 1
                                                                       A typical concentrator weighs
   Oxygen Concentrator                                                 approximately 50 pounds and is
   The concentrator is a                                               approximately 2 feet high. (See
  stationary device that
                                                                       Figure 1.) In addition to the
concentrates the oxygen
             in room air.
                                                                       concentrator, Medicare pays for a
                                                                       portable cylinder system, which
                                                                       provides backup in the event of a
                                                                       power outage as well as mobility in
                                                                       the home. The cylinder is filled with
                                                                       gaseous oxygen. When suppliers
                                                                       deliver the stationary and portable
                              Source: Patient Instructions from Oxygen systems, they also furnish accessories,
                                      Supplier, 2005.
                                                                       including oxygen tubing and a nasal
                             cannula. The tubing is attached to the outlet on the concentrator or
                             cylinder and the oxygen is delivered through the nasal cannula, which
                             the patient wears. The tubing, available in different lengths, allows the
                             patient to move around the home. Portable oxygen cylinders are
                             available in different sizes. Patients transport the cylinders in a cart or
                             carrying case, such as a shoulder bag.
                             Payment Categories for DME
                             Under Medicare Part B, all DME is classified into one of several
                             payment categories. Each payment category has distinct payment
                             methodologies that govern how Medicare pays for the equipment (see
                             section 1834(a) of the Act and 42 CFR § 414.210.)
                             Oxygen and oxygen equipment. Medicare pays for oxygen contents (liquid
                             and gas) and oxygen equipment on a monthly basis. Until Congress
                             modified the longstanding payment method in 2006, Medicare allowed
                             indefinite rental for stationary and portable equipment. (See discussion
                             of this new method on the following page.) Effective January 1, 2006,
                             payments for stationary and portable equipment will cease after
                             36 months of continuous rental. Medicare has and will continue to pay
                             separately for portable oxygen contents based on a beneficiary’s
                             continuing need.
                             Inexpensive or other routinely purchased items. Inexpensive DME is
                             defined as equipment for which the purchase price does not exceed
                             $150. Routinely purchased DME is defined as equipment acquired by
                             purchase at least 75 percent of the time. Medicare will purchase or rent
                             equipment in this category; however, total payments may not exceed



        OEI-09-04-00420      M E D I C A R E H O M E O X Y G E N E Q U I P M E N T: C O S T   AND   SERVICING   3
I N T R O D        U C T            I O N


                    the fee schedule purchase amount. Examples of items in this category
                    include canes, walkers, and crutches.
                    Items requiring frequent and substantial servicing. This category includes
                    items requiring frequent and substantial servicing in order to avoid risk
                    to the beneficiary’s health. Examples include passive motion exercise
                    devices and infusion pumps used for administration of certain
                    medication. For these items Medicare pays for rental only.
                    Customized items. This category includes items uniquely constructed or
                    substantially modified to meet the specific needs of an individual
                    beneficiary. For these items Medicare pays for purchase only.
                    Capped rental. The capped rental category includes all other equipment
                    that does not fall into one of the other payment categories. Medicare
                    currently limits, or caps, rental payments for approximately 149 items,
                    including hospital beds and wheelchairs. Effective January 1, 2006,
                    carriers pay monthly fee schedule amounts for these items for a period
                    not to exceed 13 consecutive months, at which time title to the
                    equipment transfers to the beneficiary. Medicare will continue to pay
                    for reasonable and necessary servicing and maintenance after the end
                    of the rental period.
                    Other covered items (other than DME). This category includes supplies
                    that are payable for purchase.
                    New Payment Methodologies
                    The DRA, signed into law on February 8, 2006, changed the
                    reimbursement methodology for home oxygen equipment from
                    continuous rental to capped rental, effective January 1, 2006. The DRA
                    limits rental payments for home oxygen equipment to 36 months of
                    continuous use. After 36 months, suppliers must transfer title of the
                    equipment to the beneficiary, but they may receive payments for
                    nonroutine maintenance and servicing.

                    The President’s proposed budget for fiscal year 2007 would further
                    reform the payment methodology for all home oxygen equipment. The
                    budget proposes limiting rental payments for home oxygen equipment
                    to 13 months of continuous use.

                    In August 2006, CMS issued a proposed rule implementing DRA’s
                    provisions governing Medicare payment for oxygen equipment and
                    capped rental DME (71 FR 44082, August 3, 2006). CMS proposes to
                    establish a new variable rate structure for different classes of oxygen
                    and oxygen equipment, with monthly payments tied more closely to the

 OEI-09-04-00420    M E D I C A R E H O M E O X Y G E N E Q U I P M E N T: C O S T   AND   SERVICING   4
I N T R O D        U C T            I O N


                    costs of each class. For example, under this proposed rule, the monthly
                    payment rate for stationary concentrators would be reduced to $177,
                    while payments for portable concentrators and transfilling systems
                    would increase. Medicare would also cover nonroutine maintenance for
                    beneficiary-owned equipment that an authorized technician would need
                    to perform. Pursuant to current policy, CMS would not cover routine
                    maintenance, including testing, cleaning, and changing filters, after
                    beneficiaries reach the 36-month cap and assume ownership of their
                    equipment.
                    Alternative Payment Methodologies
                    Section 302(b)(1) of the MMA mandated competitive bidding for certain
                    DME in urban areas beginning in 2007. One aim of the initiative is to
                    reduce Medicare payments. CMS tested the feasibility of competitive
                    bidding at two sites from 1999 to 2002 and achieved average price
                    reductions ranging from 19 percent to 22 percent for home oxygen
                    equipment.

                    The Veterans Affairs (VA) Medical Center in Tampa, Florida, was the
                    first VA facility in the United States to purchase concentrators rather
                    than renting them indefinitely or capping the rental period. This
                    facility, which started buying concentrators in 1999, now purchases
                    from a local manufacturer and contracts with a supplier to deliver and
                    maintain the equipment. VA has contracted with the same supplier for
                    servicing since the program began and pays $895 to purchase a
                    concentrator, $90 for delivery, and $48 for annual maintenance.
                    VA acknowledges that $895 is not the lowest price available but pays
                    more because the manufacturer is nearby, and the proximity facilitates
                    communication and exchanges of equipment. The VA Medical Center
                    serves an average of 825 oxygen patients per month, two-thirds of whom
                    are eligible for Medicare.

                    Like Medicare, the VA Medical Center in Atlanta, Georgia, rents all of
                    its equipment and pays twice as much per month as the Tampa medical
                    center. Tampa’s monthly costs are $100.27; Atlanta’s monthly costs are
                    $217.
                    Prior Inspector General Work
                    OIG has previously examined the servicing and payment methods for
                    respiratory equipment, which includes home oxygen equipment and
                    other respiratory devices. In addition to the report comparing Medicare
                    payment rates for home oxygen equipment to the rates paid by FEHB
                    plans (mentioned on page 2), OIG assessed the servicing for a

 OEI-09-04-00420    M E D I C A R E H O M E O X Y G E N E Q U I P M E N T: C O S T   AND   SERVICING   5
I N T R O D        U C T            I O N


                    respiratory assist device with bilevel capability and a backup rate in the
                    June 2001 report, “Respiratory Assist Devices With Back-up Rate”
                    (OEI-07-99-00440). OIG concluded that the equipment belonged in the
                    capped rental payment category rather than the frequent and
                    substantial servicing category. OIG recommended that CMS reclassify
                    the device. In January 2006, CMS issued a final rule implementing
                    OIG’s recommendation (71 FR 4518, January 27, 2006).

                    In June 1999, OIG issued the report, “Home Oxygen Therapy Profiles”
                    (OEI-03-96-00092), which assessed the nature and frequency of
                    servicing for home oxygen equipment. In November 1994, OIG issued
                    “Oxygen Concentrator Services” (OEI-03-91-01710), which documented
                    the wide variation in the servicing that suppliers provided.


                    METHODOLOGY
                    We based this review on a simple random sample of Medicare
                    beneficiaries who rented home oxygen equipment in calendar year
                    (CY) 2004 and information about the cost and rental history of the
                    concentrators these beneficiaries used.
                    Scope
                    This review is national in scope and focuses on the cost of concentrators
                    that beneficiaries rent, as well as the nature and frequency of services
                    that oxygen equipment suppliers provide to beneficiaries in their homes.
                    This report addresses neither the cost of providing these services nor
                    such ancillary expenses as billing, processing the physician’s order,
                    regulatory compliance, and equipment maintenance outside the home.
                    These costs are reflected in the fee schedule amounts, which are based
                    on historical charges by suppliers.
                    Sample Selection
                    Using the 100-percent National Claims History database for services
                    rendered in CY 2004, we selected a simple random sample of
                    150 Medicare beneficiaries. We selected this sample from a population
                    of 448,974 beneficiaries for whom Medicare paid a monthly rental for an
                    oxygen concentrator (E1390) during 2004 but not for any stationary
                    oxygen equipment during 2003 (E1390, E0439, E0424) so that the
                    sample would consist of new users of oxygen concentrators.
                    Data Collection and Analysis
                    We surveyed by mail all of the suppliers that provided equipment to the
                    beneficiaries in our sample. Using a standardized data collection
                    instrument, we requested that suppliers report all services they

 OEI-09-04-00420    M E D I C A R E H O M E O X Y G E N E Q U I P M E N T: C O S T   AND   SERVICING   6
I N T R O D        U C T            I O N


                    provided to the beneficiaries for the entire rental period and submit
                    documentation supporting each service. We counted services if the
                    supplier documented them but did not report them on the instrument.
                    We also asked suppliers to report and document the price that they paid
                    for the concentrator that the sampled beneficiary used, as well as the
                    number of previous users of the equipment (both Medicare and non-
                    Medicare). The suppliers provided data on 145 of the 150 beneficiaries
                    in our sample, which yielded a 97-percent response rate.

                    In addition to surveying suppliers by mail, we visited several suppliers
                    in California and Florida to obtain detailed information about their
                    operations, servicing and maintenance practices, and relationships with
                    beneficiaries. We visited suppliers in California because of their
                    proximity to our office and suppliers in Florida because of their location
                    near the VA Medical Center in Tampa. All of the suppliers invited us to
                    accompany them during routine patient visits to observe delivery and
                    setup practices as well as ongoing maintenance. We visited the VA
                    Medical Center in Tampa to interview staff about their longstanding
                    purchase program for home oxygen equipment. Finally, we
                    accompanied VA staff on home visits to oxygen patients.

                    We also analyzed National Claims History data from CYs 1994 to 2004
                    for a 1-percent sample of Medicare beneficiaries to estimate the savings
                    associated with different payment methods.

                    See Appendix A for the confidence intervals for selected statistics and
                    Appendix B for the methodology for calculating the savings associated
                    with limiting the rental period for oxygen concentrators to 13 months.
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-09-04-00420    M E D I C A R E H O M E O X Y G E N E Q U I P M E N T: C O S T   AND   SERVICING   7
 F   I N D I N G         S
Δ        F I N D I N G S 


             Based on the 2006 median fee schedule             The DRA limits rental payments
              amount, Medicare will allow $7,215 for           for oxygen equipment to
                                                               36 months of continuous use.
              36 months for concentrators that cost
                                                               Based on our analysis of
                     $587, on average, to purchase
                                                               Medicare paid claims data,
                        approximately 46 percent of beneficiaries who started renting their
                        equipment in 2001 rented continuously for at least 12 months, while
                        22 percent rented for 36 months or longer. 2 (See Figure 2.)

                                                                    Duration of Oxygen Concentrator Rental by
           Figure 2
                                                                M edicare Beneficiaries Who Started Renting in 2001
Duration of Rental
       Twenty-two
                                                     100

         percent of
                                                      90

          Medicare
                          Percent of beneficiaries




                                                      80

beneficiaries rent
                                                      70

 for 36 months or
                                                      60

             longer.
                                                      50

                                                      40

                                                      30

                                                      20

                                                      10

                                                       0
                                                            0                10                        20    30
                                                                                  Number of months rented




                       Source: Office of Inspector General analysis, 2006.



                        The median Medicare monthly fee schedule allowance for concentrators
                        is $200.41 as of January 2006. The monthly rental payment is the same
                        for both new and used concentrators. Based on this fee schedule
                        amount, Medicare will allow $7,215 for beneficiaries who started
                        renting in January 2006 and continue renting for 36 months.
                        The average cost of a new concentrator is $587
                        Based on invoices and other documentation from suppliers and
                        manufacturers associated with our sample of beneficiaries, new oxygen
                        concentrators cost $587 each, on average. (See Appendix A for


                                       2 We used the definition of continuous use found in the Medicare Claims Processing

                        Manual (publication 100-04), chapter 20, section 30.5.4. A rental period is continuous even
                        if there are gaps of up to 60 days between rental months.



     OEI-09-04-00420    M E D I C A R E H O M E O X Y G E N E Q U I P M E N T: C O S T   AND   SERVICING                    8
F   I N D I N G          S


                  confidence interval.) We based this estimate on the prices for new
                  concentrators purchased between 2000 and 2004 and rented to
                  beneficiaries in our sample. These prices reflect volume discounts that
                  manufacturers offer routinely. Suppliers reported that they also
                  received prompt pay discounts and rebates for one-third of the
                  concentrators that sampled beneficiaries rented. The prices that
                  suppliers reported typically did not reflect these prompt pay discounts
                  and rebates and, therefore, are not included in our estimate of the
                  average concentrator price.
                  Beneficiaries’ coinsurance for a 36-month rental is more than twice the
                  average cost of a new concentrator
                  Based on a 36-month rental period at the 2006 median fee schedule
                  amount, beneficiaries will incur $1,443 in coinsurance. Since the
                  average cost of a concentrator is $587, the coinsurance exceeds the
                  average cost of two concentrators by $269.
                  If Medicare rental payments for oxygen concentrators were limited to
                  13 months, the program and its beneficiaries would realize considerable
                  savings
                  The DRA changed the reimbursement methodology for capped rental
                  items, except oxygen equipment, by reducing the rental period from
                  15 months to 13 months. The President’s budget for fiscal year 2007
                  would limit the rental period for oxygen equipment to 13 months.

                  We calculated potential savings for concentrators if the rental period
                  were 13 months instead of 36 months and found that Medicare and its
                  beneficiaries would save approximately $3.2 billion over 5 years. To
                  estimate these savings, we used the 2006 median fee schedule amount
                  of $200.41 for rental of an oxygen concentrator. Our estimate does not
                  include any allowances for maintenance and servicing or potential shifts
                  in utilization to other oxygen modalities such as portable concentrators
                  and transfilling systems. These factors would likely result in lower
                  savings than our estimate. In addition, our estimate includes
                  beneficiaries’ coinsurance and premium-related costs, which amount to
                  approximately 40 percent of our calculated savings. (See Appendix B
                  for a more detailed discussion of our methodology.)




OEI-09-04-00420   M E D I C A R E H O M E O X Y G E N E Q U I P M E N T: C O S T   AND   SERVICING   9
F 	I N D I N G 
S


                   Suppliers commonly provide used concentrators to Medicare beneficiaries
                   Suppliers rented used concentrators to 73 percent of sampled
                   beneficiaries. On average, the concentrators were 2½ years old. For
                   example:
                   	   One beneficiary in our sample was the 17th person to rent a
                        concentrator that the supplier purchased in 1996.
                   	   Another beneficiary was the 16th person to use a concentrator that
                        was purchased in 1997.
                   	   One beneficiary rented a concentrator that the supplier purchased in
                        1988 for $745. The supplier calculated that revenue from that
                        concentrator totaled $11,530.58.
                   	   Medicare allowed $7,554 for another unit rented by a sampled
                        beneficiary. The supplier paid $546 for the concentrator in 2002.
                        The sampled beneficiary rented it for 1½ months. Another Medicare
                        beneficiary had rented this concentrator for 2½ years before the
                        sampled beneficiary started renting it.
                   	   Medicare allowed $7,260 for a single concentrator that one sampled
                        beneficiary rented. This total reflects the allowance for one previous
                        Medicare beneficiary who rented the equipment for 2¼ years. The
                        supplier bought this equipment for $617 in 2001.

                   Despite the fact that suppliers routinely rent used equipment to
                   Medicare beneficiaries, only 6 percent of the concentrators used by
                   sampled beneficiaries malfunctioned at any time during their rental
                   period. Based on our sample and discussions with suppliers, when a
                   concentrator malfunctions, the supplier typically replaces it with
                   another unit rather than repairing the malfunctioning unit and
                   returning it to the same beneficiary.

                   Suppliers reported that they exchanged the malfunctioning
                   concentrators that were rented by 12 of 145 beneficiaries
                   (12 concentrators). The number of previous users of the concentrators
                   that malfunctioned ranged from 1 to 16. In at least 8 of the 12 cases,
                   suppliers replaced the defective equipment with used concentrators (we
                   do not have information on the remaining 4 cases).




 OEI-09-04-00420   M E D I C A R E H O M E O X Y G E N E Q U I P M E N T: C O S T   AND   SERVICING   10
             F    I N D I N G               S           





                       Based on our analysis, minimal servicing and                                                           Suppliers train beneficiaries
                        maintenance for concentrators and portable                                                            to perform routine
                                          equipment are necessary                                                             maintenance. Based on
                                                                                                                              instructions in the
    Figure 3
                                                                                                                              educational materials that
     Patients                                                                                                                 suppliers provide to
     perform                                                                                                                  beneficiaries at the time of
      routine
                                                                                                                              delivery, patients must
maintenance
    Suppliers
                                                                                                                              clean and change their
train patients                                                                                                                tubing and nasal cannula
   to change                                                                                                                  on a regular basis. In
  their tubing
                                                                                                                              addition, suppliers instruct
 and cannula
 and to clean
                                                                                                                              patients to clean the
 the external                                                                                                                 concentrator’s external
        filter.                                                                                                               (dust) filter, which can be
                                                                                                                              washed in a sink with soap
                                                                                                                              and water. (See Figure 3.)
                     Source: Patient Instructions from Oxygen Supplier, 2005.


                                           Suppliers check concentrators every 4 months on average
                                           Among beneficiaries in our sample who rented continuously for 1 year
                                           or longer, suppliers checked their concentrators approximately once
                                           every 4 months on average.3 Suppliers typically perform the same
                                           services during every visit. These services include checking the flow
                                           rate (liters per minute) prescribed by the physician and checking the
                                           concentration of oxygen delivered by the unit.

                                           When suppliers visit beneficiaries, they often perform services that a
                                           beneficiary has been instructed to do. For example, based on our
                                           sample, 50 percent of the visits to service the concentrators included
                                           cleaning the external filter, which the beneficiary is trained to
                                           maintain.

                                           When we accompanied suppliers on their visits to beneficiaries’ homes,
                                           we observed that routine maintenance for a concentrator consists of
                                           checking the filter to make sure it is clean and checking the oxygen



                                             3 When we counted services and calculated the statistics in this paragraph, we excluded
                                           the services provided on the first and last day of the rental period (i.e., delivery and pickup).



                  OEI-09-04-00420          M E D I C A R E H O M E O X Y G E N E Q U I P M E N T: C O S T   AND   SERVICING                            11
       F   I N D I N G           S


                               concentration and flow rate using handheld instruments—tasks that
                               can be performed in less than 5 minutes.

                               Although suppliers checked concentrators every 4 months, this
                               frequency exceeds the guidelines of two major manufacturers that
                               accounted for two-thirds of the concentrators rented by sampled
                               beneficiaries. According to these guidelines, comprehensive preventive
                               maintenance need only be performed annually or after several thousand
                               hours of use. Similarly, the VA Medical Center in Tampa covers annual
                               maintenance only.

                               Suppliers often use the visits to deliver accessories, typically new tubing
                               and cannula, that they could mail to the beneficiary. Ongoing patient
                               education is uncommon; only 18 percent of these visits included
                               educating beneficiaries. Furthermore, 21 percent of these visits
                               occurred when the supplier was scheduled to deliver oxygen cylinders to
                               the home.

                               Initial delivery and setup are more time-consuming because suppliers
                               have to find appropriate places for the concentrator and portable
                               equipment in the home and educate beneficiaries and their caregivers
                               about the new equipment. These visits can take as long as 1 hour.

                                                                                 Suppliers deliver cylinders once every 3 months
               Figure 4                                                          Approximately 83 percent of supplier visits
      Oxygen Cylinder
                                                                                 related to portable equipment are to “switch
Cylinders are available
     in different sizes.
                                                                                 out” empty cylinders with full ones. (See Figure
                                                                                 4.) Other visits involve educating patients and
                                                                                 delivering accessories. Among beneficiaries
                                                                                 who rented concentrators for 1 year or more,
                                                                                 65 percent received two or fewer cylinders from
                                                                                 their suppliers in the first year of rental
                                                                                 (excluding the initial cylinder delivery). We
                                                                                 observed that beneficiaries do not need to be at
                                                                                 home when suppliers deliver the cylinders. In
                             Source: Patient Instructions from                   addition, we reviewed documentation indicating
                                     Oxygen Supplier, 2005.
                                                                                 that, in some cases, suppliers left cylinders on
                                                                                 the beneficiary’s porch.

                               The DRA mandates capped rental for both stationary and portable units
                               after 36 months of continuous rental. Medicare will continue to pay for
                               portable contents after 36 months on a monthly basis as long as the
                               beneficiary requires oxygen. Currently, suppliers must provide


           OEI-09-04-00420     M E D I C A R E H O M E O X Y G E N E Q U I P M E N T: C O S T   AND   SERVICING             12
F   I N D I N G        S


                      whatever quantity of oxygen the beneficiary uses. Medicare
                      reimbursement is the same, regardless of quantity. In 2006, the median
                      monthly allowance for portable contents is $21.41.




    OEI-09-04-00420   M E D I C A R E H O M E O X Y G E N E Q U I P M E N T: C O S T   AND   SERVICING   13
Δ   R E C O M M E N D A T I O N S                                                                


                  The DRA limits the rental period for home oxygen equipment and
                  directs the Secretary to pay for maintenance and servicing if the
                  Secretary determines that such payments are reasonable and necessary
                  after the rental period ends. In a proposed rule, CMS indicated that it
                  will make such payments. Concentrators are reliable equipment that
                  require limited servicing, as evidenced by instructions from
                  manufacturers, the common practice of providing used equipment to
                  beneficiaries, and the age of the concentrators that some sampled
                  beneficiaries use. We recommend that CMS:
                  Work with Congress To Further Reduce the Rental Period for Oxygen
                  Equipment
                  Medicare and its beneficiaries will continue to pay more than 12 times
                  the purchase price for concentrators under the new 36-month rental
                  limitation. Therefore, a shorter rental period may be warranted.
                  Determine the Necessity and Frequency of Nonroutine Maintenance and
                  Servicing for Concentrators
                  Medicare does not cover routine servicing for DME that beneficiaries own
                  but will cover nonroutine maintenance. Based on our sample, suppliers
                  most commonly perform routine servicing that Medicare does not cover.
                  However, CMS needs to determine the extent and frequency of nonroutine
                  servicing and maintenance, as well as the appropriate reimbursement.
                  Determine if a New Payment Methodology Is Appropriate for Portable
                  Oxygen
                  Unlike concentrators, portable oxygen systems require refills, and
                  suppliers pick up empty cylinders and deliver full ones. Currently,
                  Medicare pays an add-on amount for portable systems; however,
                  payment for the contents of the cylinders is bundled into the monthly
                  rental amount for the concentrator. When beneficiaries reach the
                  36-month rental limit, Medicare will no longer pay for concentrators or
                  portable systems but will pay for cylinder contents only. The monthly
                  payment for contents (currently $21.41 per month) does not vary based
                  on the amount of oxygen a beneficiary requires. This payment may not
                  adequately reimburse suppliers for providing portable refills and related
                  services once a beneficiary has reached the 36-month rental limit. (We
                  note that CMS included a variable rate structure in its proposed rule.)




OEI-09-04-00420   M E D I C A R E H O M E O X Y G E N E Q U I P M E N T: C O S T   AND   SERVICING   14
R   E C O        M M E N D A T                        I O N              S             




                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      CMS concurred with our recommendations and noted that the
                      President’s budget for fiscal year 2007 proposed reducing the rental
                      period for oxygen equipment to 13 months. CMS noted that its
                      proposed rule, published on August 3, 2006, addresses nonroutine
                      maintenance and servicing and that it would be interested in receiving
                      comments during the comment period on the appropriate frequency of
                      servicing schedules. The proposed rule also addresses the payment
                      methodology for portable oxygen systems and proposes to increase the
                      monthly payment for contents from $21 to $55.
                      In CMS’s comments on the draft report, the agency expressed concern
                      that our savings estimate for a 13-month rental limit is too high,
                      because it does not include adjustments to payments for maintenance
                      and servicing or potential shifts to oxygen modalities other than
                      concentrators. We acknowledge that our estimate did not include the
                      effect of maintenance and servicing payments or potential shifts to other
                      types of equipment. These factors would likely result in lower savings
                      than our estimate. CMS also notes that our methodology differs from
                      the way that the CBO or CMS’s Office of the Actuary would calculate
                      savings. We acknowledge that CBO and CMS estimates exclude
                      beneficiaries’ coinsurance and premium-related costs, which amount to
                      approximately 40 percent of our calculated savings. CMS’s comments
                      are included in their entirety in Appendix C.




    OEI-09-04-00420   M E D I C A R E H O M E O X Y G E N E Q U I P M E N T: C O S T   AND   SERVICING   15
  Δ         A P P E N D I X ~ A



                                     Confidence Intervals for Selected Statistics

                   Statistic                                                  N                   Point Estimate        95% Confidence Interval

Average (mean) purchase price for new
oxygen concentrators that were purchased
from 2000 to 2004 and used by                               119 concentrators                                 $587              $570–603
beneficiaries whose Medicare payments for
concentrators began in 2004

Of beneficiaries whose Medicare payments
for oxygen concentrators began in 2001,
                                                            3,754 beneficiaries                              46.3%             44.7–47.9%
proportion who rented continuously for at
least 12 months

Of beneficiaries whose Medicare payments
for oxygen concentrators began in 2001,
                                                            3,754 beneficiaries                              22.0%             20.7–23.3%
proportion who rented continuously for at
least 36 months

Of beneficiaries whose Medicare payments
for oxygen concentrators began in 2004,
                                                            145 beneficiaries                                73.1%             65.9–80.3%
proportion who received at least one used
concentrator

Average (mean) number of months from
purchase or lease of equipment to
beneficiary’s rental of concentrator, for
                                                            177 concentrators                             32.1 months       26.5–37.6 months
concentrators rented to beneficiaries whose
Medicare payments for the units began in
2004

Percentage of concentrators (rented to
beneficiaries whose Medicare rental
                                                            203 concentrators                                 5.9%              2.9–8.9%
payments for the units began in 2004) that
malfunctioned




       OEI-09-04-00420         M E D I C A R E H O M E O X Y G E N E Q U I P M E N T: C O S T   AND   SERVICING                             16
Δ     A P P E N D I X ~ B                                                


                            Methodology for Savings Calculation
                            The table below shows potential savings for concentrators (code E1390)
                            if the rental period were 13 months rather than 36 months.


                    Potential Savings for Oxygen Concentrators—13-Month Limitation4

       Duration of
                                   Year 1                       Year 2                         Year 3            Year 4         Year 5
         Rental

       13 months                     0                       $1.0 billion                    $1.0 billion      $0.6 billion   $0.6 billion

    Source: Office of Inspector General analysis of 1 percent of National Claims History for DME, prosthetics, orthotics, and supplies,
    2006.


                            We performed the following calculations to estimate the potential
                            savings. We used CY 2004 claims to calculate this estimate.

                            1. 	       We used a 1-percent sample of allowed claims for DME,
                                       prosthetics, orthotics, and supplies rendered during CY 2004. This
                                       sample contained 102,086 E1390 claims for 12,619 beneficiaries.
                                       For each of these beneficiaries, we obtained claims data for all
                                       E1390 claims during CYs 2000 through 2004.

                            2. 	       To estimate the potential savings during the second year of
                                       implementation, we used the database created in step 1. For each
                                       claim for E1390 for 2004, we determined the number of claims for
                                       the first month of rental (disregarding any concentrator rental
                                       before 2003) and similarly for months 2 through 24. In counting
                                       these beneficiary rental months, we reset the counter to month 1 if
                                       there was a break of more than 60 days in the beneficiary’s rental
                                       of the oxygen concentrator. We used this criterion so that our
                                       estimate would correspond to the definition of continuous use
                                       found in the Medicare Claims Processing Manual (publication
                                       100-04), chapter 20, section 30.5.4. We assumed that portable
                                       oxygen contents would be paid for separately after month 13, so
                                       we included in our estimate a separate monthly payment of
                                       $21.41, which is the median among State fee schedule amounts for


                               4 These potential savings reflect savings to both Medicare and its beneficiaries. If

                            savings were limited to Medicare, they would be approximately 60 percent of the savings in
                            the table, because beneficiaries’ coinsurance and premium-related costs would be excluded
                            from the calculation. CBO and CMS exclude coinsurance and premium-related costs from
                            their savings estimates. For example, total savings to Medicare would be approximately
                            $0.6 billion in each of Years 2 and 3 and approximately $0.4 billion in each of Years 4 and 5.



OEI-09-04-00420             M E D I C A R E H O M E O X Y G E N E Q U I P M E N T: C O S T   AND   SERVICING                                 17
A   P   P E N D       I X ~           B


                                 E0443 and E0444 (portable oxygen contents). Using these
                                 amounts, we calculated savings per E1390 claim as follows:



                                 Beneficiary’s oxygen rental, months 1 through 13:
                                 Medicare payment under 13-month limit:

                                 Median 2006 fee schedule amount = $200.41



                                 Medicare payment without 13-month limit: 


                                 Median 2006 fee schedule amount = $200.41




                                 Medicare savings: $200.41–$200.41 = $0 




                                 Beneficiary’s oxygen rental, months 14 through 24:


                                 Medicare payment under 13-month limit: 


                                 Portable contents = $21.41 




                                 Medicare payment without 13-month limit:

                                 Median 2006 fee schedule amount = $200.41



                                 Medicare savings: $200.41–$21.41 = $179.00



                                 To estimate the potential savings during the second year of
                                 implementation, we multiplied the savings above by the number of
                                 E1390 claims during CY 2004 for each of months 1 through 24 of
                                 rental, and we multiplied the result by 100 (because these 2004
                                 claims were from a 1-percent sample). This resulted in savings of
                                 approximately $1.0 billion.

                                 The estimated savings for the third and subsequent years after
                                 implementation were calculated similarly.




    OEI-09-04-00420   M E D I C A R E H O M E O X Y G E N E Q U I P M E N T: C O S T   AND   SERVICING   18
..                A P PEN D                       x         c




'&'nl.
(
..i-.ri:¡
       It...r~u
...,.l"."c~'"."
                       DEPARTMENT OF HEALTH & HUMAN SERVICES                                      Centers for Medicare & Medicaid Services


                                                                                                  Administrator
                                                                                                  Washington, OC 20201

                  DATE:               SEP 7 20



                                                                       1f ~
                  TO:              Daniel R. Levinson
                                   Inspector General
                                   Offce of Inspector General

                  FROM:            Mark B. McClellan, M.D., Ph.D.
                                   Administrator

                  SUBJECT: Offce of Inspector General (OIG) Draft Report: "Medicare Home Oxygen
                                   Equipment: Cost and Servicing," (OEI-09-04-00420)


                  Than you for the opportunity to review and comment on this oiG report which compares
                  Medicare spending on oxygen concentrators with suppliers' average purchase price and
                  describes the nature and frequency of servicing concentrators and portable equipment.
                  Regarding equipment costs, the report found that the average purchase price for concentrators is
                  $587; under the current payment system suppliers would receive a tota of$7,2l5 for 36 months,
                  a figure significantly in excess of the equipment acquisition costs. Indeed, the report finds that
                  Medicare beneficiar coinsurance during a 36 month rental period of$I,443 would be in excess
                  of   twce the equipment purchase price. Regarding servicing, the report finds that minimal
                  servicing and maintenance is necessary for concentrators and portble equipment and that
                  servicing tasks can be performed in less than 5 minutes. Notably, the report found suppliers
                  performing services that a beneficiary could be doing. This is an importt report by the OIG
                  that concludes Medicare will continue to pay excessively for oxygen equipment, even after
                  implementation ofthe provisions of  the Deficit Reduction Act of2005 (ORA) affecting oxygen
                  equipment.

                  Home oxygen equipment and oxygen contents are covered under the durable medical equipment
                  (DME) benefit and payment is made on the basis of monthly fee schedule amounts that are
                  modality neutral (i.e. the same payment amount applies regardless of        whether the patient uses a
                  gaseous, liquid or concentrator system). Prior to passage of         the ORA, these monthly payments
                  continued for as long as medically necessar. The ORA limited Medicare payment to 36
                  monthly rental payments after which equipment ownership transfers to the beneficiary. The
                  ORA did not change Medicare's current fee schedule amount of about $200 per month. Of    the
                  $200, Medicare pays 80 percent or $160, and the beneficiary pays 20 percent or $40.

                  The draft report provides valuable insight for the Centers for Medicare & Medicaid Services
                  (CMS) on the suppliers' average purchase price for oxygen concentrators. The OIG report found
                  that concentrators cost about $587, on average, to purchase. The report also found that suppliers
                  rented used concentrators to about 73 percent of  the sampled beneficiaries. With the curent
                  $200 monthly payment amount, suppliers would receive a total of$7,215 for 36 months, a figure
                  significantly in excess of the equipment acquisition costs. Medicare beneficiary coinsurance




      OEI-09.04.00420                MEDICARE HOME OXYGEN EQUIPMENT: COST AND SERVICING                                                      19
A P PEN D                  x         c




       Page 2 - Daniel R. Levinson

       during a 36 month rental period would be $ i ,443 and the coinsurance payments exceed the costs
       of purchasing two concentrators.


       The draft report also provides details for eMS on the maintenance and servicing that is actually
       done during a supplier's visit. The report finds that minimal servicing and maintenance is
       necessar for concentrators and portable equipment. The report found suppliers performing
       services that a beneficiar could do, such as a cleaning a concentrator's external fiter. This
       finding is based on reports from suppliers, on actual on-site observation and accompanying
       suppliers on their visits to beneficiaries' homes.

       The report also found that suppliers checked concentrators every 4 months but it does not
       indicate whether servicing every 4 months is an appropriate servicing schedule. It points out
       that these servicing tasks take minimal time to perform and can be performed in less than 5
       minutes, however, the initial delivery and set-up can tae as long as one hour. Also, according to
       manufacturer guidelines, more comprehensive preventive maintenance need only be performed
       anually or after several thousand hours of use. This report substatiates that oxygen
       concentrators are sturdy and long lasting equipment that require minimal maintenance and
       servicing. This information is very useful as CMS develo'ps policy on maintenance and servicing
       for beneficiar-owned oxygen equipment.

       The draft report also provides information on the refillng of contents for portable systems.
       Unlike concentrators, most portble oxygen systems require refillng tans. The exceptions are
       the new technology of oxygen equipment such as the transfillng machines and the portable
       concentrators. The report found that suppliers picked up empty tank and delivered full ones
       once every 3 months. As the report indicates, after ownership of equipment, Medicare wil make
       a separate payment for refillng portble tans, currently about $21 per month and that such
       payment amount may not be an adequate amount to reimburse suppliers for providing portable
       refills. The appropriateness of current payment structure for beneficiary owned oxygen
       equipment has been amplified in light of  the recent changes by the ORA. This is critical
       information as CMS develops policy for beneficiary-owned equipment, specifically for portable
       systems.

       Finally, the report contains an estimate ofthe savings for a policy that would reduce the number
       of months for which Medicare would make rental payments for oxygen concentrators from 36 to
       l3 months. We are concerned that the savings estimate presented in Table i for such policy is
       too high. As the report indicates, this estimate does not include an offset for separate payments
       that Medicare would make for maintenance and servicing after ownership transfers to a
       beneficiary after i 3 months under such policy. Also, the estimate is for a policy that would
       reduce the number of   monthly rental payments from 36 to l3 for concentrators only. As such,
       there could be incentives for suppliers to switch oxygen modality to oxygen tanks in order to
       continue to receive the $200 monthly payment amounts from Medicare for months 14 through
        36. The estimate does not make an adjustment for such potential behavior shift or any other
        potential behavior changes. Savings are typically presented by the Congressional Budget Offce




 OEI.09.04.00420         MEDICARE HOME OXYGEN EQUIPMENT: COST AND SERVICING                                20
A P PEN D                     x        c




       Page 3 - Daniel R. Levinson

       (CBO) and the eMS Offce of          the Actuary (OAeT) as estimates of     Federal budget savings, that
       is excluding coinsurance and Part B premium savings to beneficiaries. As footnote 3 indicates,
       sllch Federal savings are tyically 60 percent of savings without these offsets. Thus, the figures
       presented in Table i are higher than would be presented by CBO or OACT. eBO and OACT
       also present savings on a fiscal year basis and on a cash rather than incurred basis which would
       also reduce the estimates presented in Table 1.

       The Deparent of Health and Human Services is committed to ensurng that changes in
       Medicare payment rules for home oxygen affecting Medicare beneficiaries and suppliers are
       implemented in a way that fosters access to needed items and services in a cost effective maner.
       This commitment is reflected in the proposed rule that was          published on August 3, 2006 at CMS
       1304-P (71 Fed Reg 44082 (August 3, 2006)), that would establish certain policies designed to
       implement the DRA changes and other changes in a way that safeguard beneficiary access to
       quality items and new technology and ensure access to oxygen contents and maintenance and
       servicing of beneficiary owned equipment.



       OIG Recommendation

       Recommends that CMS work with Congress to furter reduce the rental period for oxygen
       equipment.

       CMS ResDonse

       We agree. The Administration's fiscal year 2007 budget contained a proposal to reduce the
       monthly rental limit for oxygen from 36 to 13 months.

       OIG Recommendation

        Recommends that CMS determine the necessity and frequency ofnonroutine maintenance and
        servicing for concentrators.

        CMS ResDonse

        In the proposed rule published on August 3, 2006, CMS proposed to pay for reasonable and
        necessary nonroutine service and maintenance for oxygen concentrators. Nonroutine service and
        maintenance would cover tasks that a trained technician needs to perform such as the
        concentrator flow rate prescribed by the physician and checking the concentration of oxygen
        delivered by the unit but would exclude tasks that a beneficiar does such as cleaning the
        concentrator's external (dust) fiter. The proposed rule did not propose a specific frequency
        schedule though we would be interested to receive comments during the comment period on
        servicing schedules.




                                                                                                                 "--


 OEI-09.04.00420           MEDICARE HOME OXYGEN EQUIPMENT: COST AND SERVICING                                          21
A P PEN D                    x         c




       Page 4 - Daniel R. Levinson

       OIG Recommendation

       Recommends that eMS determine if a new payment methodology is appropriate for portable
       oxygen systems.

       eMS ResDonse

       In the proposed rule published on August 3, 2006, CMS proposed to revise payment for refillng
       portable oxygen tanks after ownership. The rule proposes to raise the payment amount from $2 I
       to $55. We are accepting comments on the appropriateness of   this payment amount for the
       refilling of portble contents after ownership.

       We conclude by offering thans to the oiG for this informative report that provides essential
       information that eMS can use to achieve the goals of   the Agency to improve beneficiar access
       to necessar equipment and services and implement cost effective Medicare payments for home
       oxygen equipment. Over the past several years we have worked closely with the DIG on issues
       affecting Medicare payment for oxygen equipment and we look forward to continuing this
       collaboration on these very important issues.




 OEI.09.04.00420           MEDICARE HOME OXYGEN EQUIPMENT: COST AND SERVICING                           22
Δ   A C K N O W L E D G M E N T S                                                                    




                  This report was prepared under the direction of Paul A. Gottlober,
                  Regional Inspector General for Evaluation and Inspections in the San
                  Francisco regional office, and Deborah W. Harvey, Assistant Regional
                  Inspector General. Other principal Office of Evaluation and Inspections
                  staff who contributed include:

                  Cindy Lemesh, Project Leader
                  Camille Harper, Project Leader

                  China Eng, Program Analyst

                  Scott Hutchison, Program Analyst

                  Scott Manley, Program Specialist

                  Tricia Davis, Director, Medicare Branch

                  Rob Gibbons, Mathematical Statistician




OEI-09-04-00420   M E D I C A R E H O M E O X Y G E N E Q U I P M E N T: C O S T   AND   SERVICING       23
